OIG Audit Report GR-30-98-009
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Fauquier County, Virginia Sheriff's Department
 
GR-30-98-009
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of three grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Fauquier County, Virginia Sheriffs Office (the
Sheriffs Office). The Sheriffs Office received grants of: $70,865 to hire 1 officer under
the Funding Accelerated for Smaller Towns (FAST) program; $399,755 to hire 5 officers
under the Universal Hiring Program (UHP); and $134,055 under the Making Officer
Redeployment Effective (MORE) program to hire 2 civilians and to purchase equipment and
technology. The purpose of the additional officers, civilians, equipment and technology is
to enhance community policing efforts.

Our audit determined that:



The Fauquier County Board of Supervisors did not authorize 3 additional positions
      required for the supplemental UHP grant. Therefore, we are recommending that $251,995 of
      the UHP grant be deobligated and put to better use.




The Sheriffs Office does not have a system to adequately track redeployment of officers
      to community policing as required by the MORE grant. This deficiency results in questioned
      cost of $70,756 and funds to better use of $58,531.




The cost of two computers was erroneously included in each of two MORE renewal grants.
      Therefore, we are recommending that $4,768 in federal funds be deobligated and put to
      better use.




Two MORE grant positions were filled by Sheriffs Office employees whose prior positions
      were not backfilled for over 3 months. The period of time that the two prior positions
      were vacant is unallocable to the grant.


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in Appendix II.
#####